Office of Material Loss Reviews
Report No. IDR-11-006


In-Depth Review of the Failure of
First Lowndes Bank, Fort Deposit, Alabama




                                  February 2011
                                      Executive Summary

                                      In-Depth Review of the Failure of First Lowndes
                                      Bank, Fort Deposit, Alabama
                                                                                      Report No. IDR-11-006
                                                                                              February 2011

Why We Did The Audit

The Alabama State Banking Department (ASBD) closed First Lowndes Bank (First Lowndes), Fort
Deposit, Alabama on March 19, 2010, and named the FDIC as receiver. On April 13, 2010, the FDIC
notified the Office of Inspector General (OIG) that First Lowndes’ total assets at closing were
$133.5 million and the estimated loss to the Deposit Insurance Fund (DIF) was $37.1 million. As of
December 31, 2010, the estimated loss to the DIF had decreased to $35.3 million. In preparing this
report, we relied extensively on work performed by Clifton Gunderson LLP, an independent contractor
engaged by the OIG.

This assignment was initiated as a material loss review (MLR). However, on July 21, 2010, the President
signed into law the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform
Act), which amends section 38(k) of the Federal Deposit Insurance Act (FDI Act). The Financial Reform
Act increases the MLR threshold from $25 million to $200 million for losses that occur for the period
January 1, 2010 through December 31, 2011. Further, the Financial Reform Act calls for the OIG to
perform in-depth reviews of failures when losses are not material but they involve unusual circumstances.
At the time the Financial Reform Act was enacted, the fieldwork for this review was substantially
complete. As a result, although the estimated loss no longer met the threshold requiring an MLR, we
decided to complete the audit and issue this report.

Consistent with both Acts, the objectives of this review were to (1) determine the causes of First
Lowndes’ failure and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the bank,
including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38 of
the FDI Act.

We note that, in conjunction with other organizational changes made to enhance the FDIC’s ability to
carry out its new and enhanced responsibilities under the Financial Reform Act, the Division of
Supervision and Consumer Protection (DSC) became the Division of Risk Management Supervision
effective February 13, 2011. As a result of the timing of our review and draft report issuance, we refer to
DSC throughout this executive summary and the body of the report.


Background

First Lowndes commenced operations on February 4, 1984, as a state nonmember bank. The bank was
wholly owned by The Fort Bancorp, Inc., a single-bank holding company. First Lowndes’ directorate
owned 42 percent of the holding company stock. The largest shareholder, the individual appointed as the
president and senior lending officer of the bank in 2002, owned 12.86 percent of the holding company
stock.

First Lowndes historically operated as a traditional community bank, with four branches serving a
predominately rural trade area southwest of Montgomery, Alabama. In 2002, the bank expanded its
lending efforts into the Gulf Coast region of Alabama and Florida and began a period of significant
growth concentrated in acquisition, development, and construction (ADC) and other commercial real
estate (CRE) loans.



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of First Lowndes
                                     Bank, Fort Deposit, Alabama
                                                                                     Report No. IDR-11-006
                                                                                             February 2011


Audit Results

Causes of Failure and Loss

First Lowndes’ failure can be attributed to (1) inadequate management and Board of Directors (Board)
oversight, (2) an aggressive growth strategy concentrated in ADC and other CRE loans, (3) deficient
underwriting and credit administration policies and procedures, and (4) reliance on non-core funding
sources that negatively impacted the bank’s net earnings.

In 2002, the bank expanded its lending efforts into the Gulf Coast region of Alabama and Florida, a new
market for the institution, and began to pursue an aggressive growth strategy focused on CRE loans. This
growth was partially funded with non-core funding sources, including brokered deposits. Relying on
higher-cost, non-core sources to fund the bank’s growth resulted in a steady decline in the bank’s net
interest margin and therefore net earnings. The bank’s decline was exacerbated by deteriorating
economic conditions in the markets served by the institution. From 2007 until First Lowndes failed, loan
losses depleted earnings and capital and impaired the bank’s liquidity position. ASBD closed First
Lowndes because it was unable to raise sufficient capital to avoid failure.

The FDIC’s Supervision of First Lowndes

The FDIC, in coordination with ASBD, provided ongoing supervisory oversight of First Lowndes.
Through their supervisory efforts, the regulators identified key risks in the bank’s operations and made
recommendations to improve risk management practices and address areas of concern. The bank’s Board
and senior management responses to these criticisms and related recommendations repeatedly fell short,
and ultimately the financial condition of the bank became critically deficient.

Given the examination findings and First Lowndes’ increasing risk profile, a more critical assessment and
stronger supervisory tenor at earlier examinations may have been prudent. In this regard, a more stringent
supervisory response and related action to address the weak risk management practices identified during
the August 2005 and earlier examinations may have been prudent. Earlier supervisory intervention may
have better positioned First Lowndes to work through the loan deterioration that developed as its real
estate markets deteriorated, mitigating, to some extent, the financial problems experienced by the bank.

Based on the supervisory actions taken, the FDIC properly implemented applicable PCA provisions of
FDI Act section 38. First Lowndes was unable to find a suitable acquirer or otherwise raise sufficient
capital to support its continued operation and was closed by the ASBD.

The FDIC has taken a number of actions to address issues discussed in this report based on lessons it has
learned from failures during the financial crisis. Of note, in 2008 the FDIC reiterated broad supervisory
expectations with regard to managing risk associated with ADC and CRE loan concentrations. Further,
the FDIC has completed a training initiative for its entire supervisory workforce that emphasizes the need
to assess a bank’s risk profile using forward-looking supervision. The training addresses the need for
examiners to consider management practices as well as current financial performance or trends in
assigning ratings, as allowable under existing examination guidance.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of First Lowndes
                                     Bank, Fort Deposit, Alabama
                                                                                    Report No. IDR-11-006
                                                                                            February 2011


Corporation and ASBD Comments

We issued a draft of this report to FDIC management and ASBD on January 7, 2011. After we issued our
draft report, DSC management officials provided informal comments for our consideration and we
revised our report as appropriate. On February 7, 2011, the Director, DSC, provided a written response to
the draft report. That response is provided in its entirety as Appendix 4 of this report.

In DSC’s response, the Director provided the division’s views on the causes of First Lowndes’ failure and
the regulators’ supervision of the bank. The response also stated that DSC issued a Financial Institution
Letter (FIL) in 2008 entitled Managing Commercial Real Estate Concentrations in a Challenging
Environment, which re-emphasized the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures. DSC also pointed out that it had issued a FIL in 2009
entitled The Use of Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened
Condition to enhance the supervision of institutions that rely on volatile non-core funding.

ASBD also provided a written response. ASBD largely agreed with our findings and added that credit
administration and underwriting were so poor at First Lowndes that the loans made in the bank’s rural
trade area would, by themselves, have led to extreme difficulties and possible failure of the bank. In
addition, they cited the following lessons learned:

       For banks rated composite 2, regulators were reluctant to require that examiner concerns be
        addressed, but banks should not be allowed to ignore examiner concerns and recommendations no
        matter how determined bank management is to do so.

       Regardless of a bank’s composite rating, serious repeat criticisms should be addressed with
        increasingly severe enforcement actions that include limits on growth.




                                 To view the full report, go to www.fdicig.gov
                               Contents
                                                                 Page
Background                                                          2

Causes of Failure and Loss                                          3
  Management and Board of Directors Oversight                       3
  Growth and Concentration in CRE Lending                           6
  Underwriting and Credit Administration                            9
  Reliance on Non-Core Funding Sources                             12

The FDIC’s Supervision of First Lowndes                            14
   Supervisory History                                             15
   Supervisory Response Related to Key Risks                       15
   Offsite Monitoring                                              18
   Implementation of PCA                                           19
   Lessons Learned                                                 21

Corporation and ASBD Comments                                      21

Appendices
  1. Objectives, Scope, and Methodology                            23
  2. Glossary of Terms                                             26
  3. Acronyms                                                      30
  4. Corporation Comments                                          31

Tables
   1. Financial Condition of First Lowndes                          3
   2. Examiner Comments on Management Controls, 2003-2005           6
   3. Summary of First Lowndes’ Adversely Classified Loans         12
   4. First Lowndes’ Non-Core Funding Sources by Dollar Amount     13
      and Combined as a Percentage of Total Deposits
   5. Trends in First Lowndes’ Net Interest Margin                 14
   6. Examination History of First Lowndes from 2002 to 2009       15
   7. First Lowndes’ Offsite Monitoring History                    19
   8. First Lowndes’ Capital Ratios and PCA Categories             20

Figures
   1. Composition and Growth of First Lowndes’ Loan Portfolio       5
   2. Net Loan Growth Rates from 2002 through 2006                  8
   3. Single-Family Home Prices in the Markets Served by First      9
      Lowndes
   4. Non-Core Funding Dependency Ratio from 2003 through 2009     13
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           February 14, 2011

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Risk Management Supervision


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        In-Depth Review of the Failure of First Lowndes Bank,
                                                Fort Deposit, Alabama (Report No. IDR-11-006)


The Alabama State Banking Department (ASBD) closed First Lowndes Bank (First
Lowndes), Fort Deposit, Alabama on March 19, 2010 and named the FDIC as receiver.
On April 13, 2010, the FDIC notified the Office of Inspector General (OIG) that First
Lowndes’ total assets at closing were $133.5 million and the estimated loss to the Deposit
Insurance Fund (DIF) was $37.1 million. As of December 31, 2010, the estimated loss to
the DIF had decreased to $35.3 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the threshold
for a material loss review (MLR) from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The Financial Reform Act
also requires the OIG to review all other losses incurred by the DIF to determine (a) the
grounds identified by the state or Federal banking agency for appointing the Corporation
as receiver and (b) whether any unusual circumstances exist that may warrant an in-depth
review (IDR) of the loss. Although the estimated loss for First Lowndes no longer met
the threshold requiring an MLR, the OIG decided to complete the audit as an IDR
because fieldwork was substantially complete at the time the Financial Reform Act was
enacted.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of First Lowndes’ failure and
the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the bank,
including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions
of section 38 of the FDI Act. This report presents an analysis of First Lowndes’ failure
and the FDIC’s efforts to promote safe and sound banking operations at the institution.
The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in material loss and
in-depth reviews, we will communicate those to FDIC management for its consideration.
As resources allow, we may also conduct more comprehensive reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.1

We include several appendices in this report. Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of terms, including
material loss, the FDIC’s supervision program, and the Uniform Financial Institutions
Rating System (otherwise known as CAMELS ratings). Appendix 3 contains a list of
acronyms. Appendix 4 presents the Corporation’s comments on our report.

We note that, in conjunction with other organizational changes made to enhance the
FDIC’s ability to carry out its new and enhanced responsibilities under the Financial
Reform Act, the Division of Supervision and Consumer Protection (DSC) became the
Division of Risk Management Supervision effective February 13, 2011. As a result of
the timing of our review and draft report issuance, we refer to DSC throughout the
executive summary and the body of this report.

Background
First Lowndes commenced operations on February 4, 1984, as a state nonmember bank
located in Fort Deposit, Alabama. The bank historically operated as a traditional
community bank, with four branches serving a predominately rural trade area southwest
of Montgomery, Alabama. In 2002, First Lowndes expanded its lending efforts into the
Gulf Coast region of Alabama and Florida and began a period of significant growth
concentrated in acquisition, development, and construction (ADC) and other commercial
real estate (CRE) loans.

First Lowndes was wholly owned by The Fort Bancorp, Inc., a single-bank holding
company. First Lowndes’ directorate owned 42 percent of the holding company stock.
The largest shareholder, the individual appointed as the president and senior lending
officer of the bank in 2002, owned 12.86 percent of the holding company stock.

Table 1 presents a summary of First Lowndes’ financial condition as of December 31,
2009, and for the 4 preceding calendar years.




1
 A further discussion of OIG-related coverage of financial institution failures can be found in Appendix 1,
the Objectives, Scope, and Methodology section of the report.

                                                     2
Table 1: Financial Condition of First Lowndes

Financial Measure              12/31/09         12/31/08         12/31/07        12/31/06        12/31/05
                                                            ($000s omitted)

Total Assets                    $137,175          $156,654        $165,969         $168,735       $155,393
Total Loans                      102,654           118,506         120,169          116,784        120,010
Total Deposits                   131,117           141,870         149,853          151,916        139,707
Return on Average Assets         (5.44%)           (0.68%)         (0.15%)           0.82%          1.09%
ADC as a percent of
Total Capital *                     181%              104%            112%              52%            80%
Other CRE as a percent of
Total Capital *                   1,216%              449%            339%             278%           318%
Tier 1 Leverage Capital
Ratio                              1.98%             7.04%           6.96%            7.39%          7.13%
Source: Uniform Bank Performance Reports (UBPR) for First Lowndes.

* Increases in the 2009 concentration ratios were attributed to a decline in First Lowndes’ capital rather
   than an increase in loan volumes.




Causes of Failure and Loss
First Lowndes’ failure can be attributed to (1) inadequate management and Board of
Directors oversight, (2) an aggressive growth strategy concentrated in ADC and other
CRE loans, (3) deficient underwriting and credit administration policies and procedures,
and (4) reliance on non-core funding sources that negatively impacted the bank’s net
earnings.

In 2002, the bank expanded its lending efforts into the Gulf Coast region of Alabama and
Florida, a new market for the institution, and began to pursue an aggressive growth
strategy focused on ADC and other CRE loans. This growth was partially funded with
non-core funding sources, including brokered deposits. Relying on higher-cost, non-core
sources to fund the bank’s growth resulted in a steady decline in the bank’s net interest
margin and therefore net earnings. The bank’s decline was exacerbated by deteriorating
economic conditions in the markets served by the institution. From 2007 until First
Lowndes failed, loan losses depleted earnings and capital and impaired the bank’s
liquidity position. ASBD closed First Lowndes because it was unable to raise sufficient
capital to avoid failure.

Management and Board of Directors Oversight

First Lowndes management and its Board failed to implement adequate management
controls during a period of loan growth focused on ADC and CRE lending in new market
areas.

                                                     3
The DSC Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall authority and
responsibility for formulating sound policies and objectives for the bank and for
effectively supervising its affairs. Executive officers such as the president have primary
responsibility for implementing the Board’s policies and objectives in the bank’s day-to-
day operations.

First Lowndes received unsatisfactory ratings for the Management component of its
CAMELS ratings starting with the 2002 examination and continuing through the last
examination in 2009.2 The examiners’ reasons for assigning these ratings included
(1) the failure of the bank’s president/senior lending officer and Board to provide proper
oversight and supervision to the bank’s lending function, including appropriate internal
audit and loan review programs; and (2) the number and severity of deficiencies noted in
the bank’s underwriting and credit administration policies and procedures, many of which
were repeated at consecutive examinations.

Management Controls During the Growth Period

The bank experienced a period of significant growth and a change in the relative mix of
its loan portfolio from year-end 2002 to year-end 2005. During this 3-year time period,
total assets increased from $68.8 million to $154.7 million (125 percent); total loans
increased from $54.2 million to $120.0 million (121 percent); and its real estate loans,
particularly CRE loans, more than tripled. Figure 1 illustrates the composition and
growth of the bank’s loan portfolio during this time.




2
 From 2002 through 2006, examiners assigned First Lowndes a “less than satisfactory” Management rating
of “3”. In 2007, this rating was downgraded to a “deficient” rating of “4”. Examiners raised the
Management rating back to a “3” in 2008 to acknowledge management’s efforts to address the bank’s
deficiencies but subsequently downgraded Management to a “critically deficient” rating of “5” in 2009.
                                                  4
Figure 1: Composition and Growth of First Lowndes’ Loan Portfolio


                                       $140,000
  Gross Loans and Leases (Thousands)




                                       $120,000                                                              $8,894

                                                                                               $8,834        $18,681
                                       $100,000
                                                                                              $21,360
                                                                                                              $15,326
                                        $80,000                            $6,720
                                                                                              $21,306
                                                                          $18,312
                                        $60,000
                                                           $5,114
                                                                          $14,549
                                                           $14,266
                                        $40,000                                                              $77,109
                                                           $11,217                            $55,912
                                                                           $39,549
                                        $20,000
                                                           $23,576


                                             $0
                                                       2002               2003                2004          2005
                                                                                 Year Ended
                                       Real Estate Loans        Commercial Loans         Individual Loans   Agricultural Loans

Source: UBPRs for First Lowndes.

During this growth period, First Lowndes’ management did not implement adequate
management controls, including internal audit and loan review programs. Specific
examiner comments on this topic, from Reports of Examination issued in 2003 through
2005, are presented in Table 2.




                                                                                     5
Table 2: Examiner Comments on Management Controls, 2003-2005
 Examination Comments
 2003 Examination Report
 o Management has not performed a number of important duties, such as preparing a budget,
    instituting an internal audit program, correcting deficiencies noted in external audit and
    supervisory examination reports, and ensuring that the Board’s policies and applicable
    banking regulations are fully complied with.

 o   The bank has no internal audit program in place and no internal auditor designated.

 o   The bank does not currently have an internal or external loan review process. Management
     is reminded that a consistent loan review is critical in maintaining high quality credits, and
     is necessary in light of the extensive loan growth experienced by the bank.

 2004 Examination Report
 o Although efforts have been made to address findings from previous examinations, this
    examination cites repeat violations, and some previously-criticized deficiencies in
    operations and loan administration remain uncorrected.

 o   To safely meet growth objectives, the Board must ascertain that a qualified and well-trained
     staff is furnished with adequate policies and procedures, and that effective review and audit
     programs ensure those policies and procedures are followed.

 o   The lack of an effective internal loan grading system has been criticized at several
     examinations. Despite promised correction, the system was again found inadequate.

 2005 Examination Report
 o The bank’s continuing problems with regard to the management of the lending function are
    evidenced by repeat criticisms in loan administration and a considerable increase in
    adversely classified assets. Although some effort has been made to address previous
    findings, numerous exceptions remain in the areas of internal routine and controls.

 o   The lack of an effective loan grading system has been criticized at several examinations.
     Inconsistencies in loan grades between loan officers and inaccuracies in assigned grades
     remain as a large number of loans reviewed were downgraded from pass grades to
     adversely classified during this examination. The need for expanded loan review to
     validate the grading system and identify problem loans is a continuing recommendation.
     Loan reviews appear to focus primarily on documentation exceptions.

 o   Significant loan administration deficiencies were noted in several areas including credit and
     cash flow analysis, construction loan draws, and appraisal review.

Source: Reports of Examination, 2003-2005.

Growth and Concentration in CRE Lending

The inherent risk in First Lowndes’ loan portfolio increased from 2002 to 2005 when the
bank pursued a new strategic direction, focusing on loan growth and changing the relative
mix of its loan portfolio from a diversified portfolio to one that was concentrated in ADC
                                                 6
and other CRE loans. A significant amount of the loan charge-offs eventually incurred
by the bank was from the loans originated during this growth period. The FDIC and
ASBD examiners we interviewed generally cited the bank’s significant growth and
increased concentration in CRE loans during this period as a major contributing factor to
the bank’s failure.

On December 12, 2006, the federal banking regulatory agencies issued a Financial
Institution Letter (FIL) entitled Joint Guidance on Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices (Joint Guidance), to reinforce existing
regulations and guidelines for real estate lending and safety and soundness.3 The Joint
Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Further, the Joint Guidance defines
institutions with significant CRE concentrations as those reporting loans for construction,
land and development, and other land representing 100 percent or more of total capital, or
institutions reporting total CRE loans representing 300 percent or more of total capital,
where the outstanding balance of CRE had increased by 50 percent or more during the
prior 36 months. Additionally, the FDIC issued FIL-22-2008, entitled Managing
Commercial Real Estate Concentrations in a Challenging Environment, dated March 17,
2008, to reemphasize the importance of strong capital and loan loss allowance levels, and
robust credit risk-management practices for institutions with concentrated CRE
exposures.

The bank began pursuing ADC and other CRE lending in the Gulf Coast region in 2002,
pursuant to a strategic initiative designed to use non-core funding to expand into credit
markets on the Gulf Coast, approximately 100 miles from the bank’s core business
operations. By 2007, First Lowndes’ ADC and CRE concentrations exceeded the levels
identified in the Joint Guidance and stayed above those levels until the bank failed.
Moreover, a majority of the ADC and CRE loans were out of its primary lending area,
making loan monitoring more difficult. Management did not implement appropriate risk
management practices for mitigating exposure in the ADC and CRE portfolios and failed
to develop appropriate strategies for exiting these markets. These factors, combined with
a significant downturn in real estate markets, led to large loan loss provisions, as well as
critically deficient earnings and capital levels.

As previously discussed, from year-end 2002 to year-end 2005, First Lowndes’ total
loans increased by 122 percent, and the annual growth level far exceeded that of its peer
group during the first 3 years of that period, as shown in Figure 2.




3
 The Joint Guidance (FIL-104-2006) was issued by the Office of the Comptroller of the Currency, the
Board of Governors of the Federal Reserve System, and the FDIC (collectively referred to as “the
agencies” in the Joint Guidance).
                                                   7
Figure 2: Net Loan Growth Rates from 2002 through 2006
                                          Net Loan Growth (Bank vs. Peer Group)

                  50.00%


                  40.00%
                                                                                                    Bank
                  30.00%                                                                            Peer
    Growth Rate




                  20.00%


                  10.00%


                   0.00%


                  -10.00%
                            2002   2003             2004           2005           2006
                                                  Year End

Source: UBPRs for First Lowndes.

First Lowndes began slowing its loan growth from 2005 to 2007. After 2007, the bank
tried to shrink its balance sheet to improve the bank’s capital position because of a sharp
increase in the level of adversely classified loans (as shown later in Table 3 on page 12),
which caused both examiners and the bank to become concerned with the adequacy of the
bank’s capital.

Changing the mix of the bank’s loan portfolio to focus more heavily on real estate loans
increased the severity of losses incurred by the bank because, starting in 2007, real estate
values in the markets served by the bank began to experience significant declines.
Figure 3 provides information on the declines in the real estate markets served by the
bank from 2007 through 2009. According to this data, for the 2-year period from 2007 to
2009, the median market value for a single-family home declined by over 12 percent in
Pensacola, Florida and over 9 percent in Montgomery, Alabama. The Montgomery area
included the markets served by First Lowndes’ core operations, while the Pensacola area
covered the Gulf Coast region where First Lowndes first began making loans in 2002.4




4
  We were unable to determine the total losses incurred by First Lowndes in the Gulf Coast region, because
neither the bank’s records nor examination reports included specific information in that regard. However,
there were numerous comments in the 2009 examination report referring to the increasing risk profile of the
bank’s loan portfolio because the institution ventured into the Gulf Coast region.
                                                           8
Figure 3: Single-Family Home Prices in the Markets Served by First Lowndes
             Decline in Median Existing Single-Family Home Prices in
                           Pensacola and Montgomery




Source: The National Association of Realtors Web site.



Underwriting and Credit Administration

Weak loan underwriting and credit administration practices contributed to the asset
quality problems that developed when First Lowndes’ lending markets deteriorated. The
bank had deficient underwriting and credit administration policies and procedures as
evidenced by the number and severity of findings in these areas in examinations from
2003 to 2009. These deficiencies included not having adequate loan policies in place to
provide proper guidance to the bank’s loan officers when originating loans and
inadequate credit administration procedures that would have allowed the bank to
(1) properly monitor the borrower and guarantor’s ability to service their debt obligations
to the bank and (2) evaluate the physical condition and estimated value of the collateral
pledged against the loans held by the institution.

First Lowndes’ loan policy did not contain adequate commercial and CRE loan guidance
for the bank’s loan officers. Specifically, the loan policy did not include:

    o Provisions requiring site inspections of real estate or any other type of collateral
      pledged against commercial and CRE loans.

    o Procedures for authenticating draw requests for construction loans. Normal and
      customary procedures include obtaining copies of third-party vendor invoices and
      lien waivers and performing site inspections before funds are released.

    o Guidelines regarding minimum debt service coverage ratios that the borrower
      needed to qualify for a loan. The policy also did not discuss the preparation of
      global debt service coverage ratios for more complex borrowers or guarantors
                                                   9
       who owned multiple properties or entities.

   o Guidelines regarding the minimum requirements for the type and frequency of
     financial information to be obtained on CRE development projects, the borrowing
     entity, or any guarantors. Such financial information is normally obtained to
     determine whether a loan should be underwritten and to monitor repayment
     capability.

Based on comments in examination reports from 2003 through 2007, it did not appear
that the bank consistently performed site inspections or analyzed the debt service capacity
of the borrowers or guarantors prior to originating loans or on a periodic basis thereafter
until the loans were repaid.

The following are some of the specific deficiencies noted in examination reports:

   o The bank did not consistently prepare credit presentations and those that were
     prepared often lacked sufficient analysis of the borrower and guarantor financial
     statements.

   o Several loans were originated with exceptions to the bank’s loan policy and the
     nature of the exceptions was not disclosed to the bank’s Board.

   o The bank originated a $750,000 loan to the president’s sister-in-law for the
     benefit of the president’s nephew, which was an apparent violation of the bank’s
     legal lending limit, and a loan to an executive vice president of the bank which
     was an apparent violation of section 337.3(c)(2) of the FDIC Rules and
     Regulations regarding the indebtednesses of an executive officer.

   o Examiners suggested several changes to the bank’s loan policy, including:
        o adding provisions disallowing the capitalization of interest and when and
           how modifications were to be granted,
        o establishing guidelines for originating unsecured loans,
        o providing more guidance in terms of the level of documentation needed to
           properly analyze a credit request,
        o establishing loan officer lending limits, and
        o providing approval requirements and standards by which extensions of
           credit could be made to executive officers or members of the Board or
           their relatives.

   o The bank was too liberal in granting loan modifications because of customer
     delinquencies or financial difficulties. Some of the modifications were granted
     just prior to the end of a quarter, when a Call Report would be due, giving the
     appearance that management was trying to mask problem loans.



                                            10
   o The bank was not properly applying payments received to the principal balances
     of certain loans as required by the contractual terms of the note agreements with
     the borrower. Examples cited included allowing borrowers to make interest only
     payments well beyond what was allowed in the note agreement or modification
     agreement and miscoding partial payments as regular payments, resulting in the
     advancement of due dates.

   o The bank’s construction inspection procedures were deficient.

   o The bank was repeatedly criticized until 2006 for failing to have an appropriate
     loan review program.

   o Starting with the 2006 examination, the bank was criticized for not properly
     monitoring and identifying its concentrations in CRE and the increased risk
     associated with loans acquired or originated outside of the bank’s normal trade
     territory.

   o In the 2007 examination, about half of the dollar amount of classified loans
     reported by examiners was identified by the examination team rather than the
     bank, suggesting that the bank did not have adequate procedures in place to
     identify and properly risk-rate problem loans. Significant dollar amounts of
     classified loans were also identified in the 2008 and 2009 examinations.

   o Starting with the 2004 examination, the bank was repeatedly criticized for failing
     to adopt an ALLL methodology that complied with generally accepted accounting
     principles and regulatory guidelines.

   o In each examination report issued from 2003 through 2009, the bank was
     criticized for having a high number of technical exceptions related to the lending
     function.

These deficiencies exacerbated the bank’s asset quality problems, which first surfaced in
the 2007 examination. Examiners reported that First Lowndes had $11.0 million in
classified loans, an increase of 150 percent from the $4.4 million in classified loans
reported at the 2006 examination. Of the total classified credits, $5.4 million, or almost
50 percent of the total, was identified by examiners, suggesting that the risk rating and
problem loan identification procedures at First Lowndes were ineffective. In the 2008
examination, the amount of classified loans increased to $16.4 million, or 13.6 percent of
total loans outstanding, and 138.4 percent of the bank’s total equity capital. As with the
2007 examination, a large percentage of the 2008 examination classifications were
identified by the examiners.

Table 3 includes information on First Lowndes’ adversely classified loans as a percentage
of both First Lowndes’ total equity capital and total loans outstanding as reported in the
examination reports issued for First Lowndes from 2002 to 2009.

                                            11
Table 3: Summary of First Lowndes’ Adversely Classified Loans
                                                    Examination “As of” Dates

Financial         6/30/09     6/30/08     6/30/07        6/30/06    3/31/05    3/31/04   3/31/03   3/31/02
Measure
                                                          ($000s omitted)
Total of
Adversely
                   $32,988     $16,443     $10,979        $4,404     $5,288    $2,439    $2,291     $1,247
Classified
Loans
Total
Outstanding       $116,841    $121,221     $118,983      $117,807   $109,337   $85,419   $57,162   $41,996
Loans
Total Equity
                   $11,223     $11,879     $12,481       $11,700     $9,825    $8,691    $5,165     $4,697
Capital
Classified
Loans as a
Percentage of       28.2%       13.6%        9.2%         3.7%        4.8%      2.9%      4.0%       3.0%
Outstanding
Loans
Classified
Loans as a
Percentage of      293.9%      138.4%       88.0%         37.6%      53.8%      28.1%     44.4%     26.5%
Total Equity
Capital
Source: Examination reports for First Lowndes.

Reliance on Non-Core Funding Sources

The bank relied on non-core funding sources, including brokered deposits, to fund its
loan growth. Although the bank’s liquidity position was not a major cause of the bank’s
failure, reliance on high-cost deposits hampered the bank’s net earnings and therefore its
ability to generate capital.

The 2006 examination indicated that First Lowndes’ return on average assets had
declined from 1.09 percent in 2005 to 0.75 percent by mid-year 2006, largely as a result
of the contraction in the bank’s net interest margin (NIM). The decline in NIM was
attributed to a significant increase in the cost of First Lowndes’ non-core funding sources,
upon which the institution was increasingly reliant.

The growth in First Lowndes’ loan portfolio from 2002 through 2005 was partially
funded with large certificate of deposit accounts, brokered deposits, and advances from
the Federal Home Loan Bank. Table 4 shows the dollar amount for each type of non-
core funding held by the bank at year-end 2002 through year-end 2009 and the combined
percentage to total deposits.




                                                    12
Table 4: First Lowndes’ Non-Core Funding Sources by Dollar Amount and
Combined as a Percentage of Total Deposits


Financial                      12/31/09          12/31/08           12/31/07            12/31/06         12/31/05          12/31/04           12/31/03    12/31/02
Measure

                                                                                           ($000s omitted)
FHLB
                                 $2,816             $2,905            $3,489               $3,632          $3,758             $3,888             $718         $770
Borrowing
Certificates
of Deposit                      $40,472            $44,733           $41,542              $40,113         $39,072            $26,880           $24,416     $15,099
> $100,000
Brokered
                                   $99               $198             $2,671               $6,129         $11,180            $13,349            $5,711      $6,038
Deposits
Total Deposits                 $131,117           $141,870          $149,853             $151,916        $139,707           $120,966           $93,292     $64,749
% of Non-
Core/Total                       33.09%            33.71%             31.83%              32.82%           38.65%            36.47%            33.06%       33.83%
Deposits
Source: Call Reports filed by First Lowndes.

Figure 4 below shows that First Lowndes’ non-core funding dependency ratio was
consistently above the bank’s peer group from year-end 2003 through 2009.

Figure 4: Non-Core Funding Dependency Ratio from 2003 through 2009
                                                            Net Non-Core Funding Dependence (Bank vs. Custom Peer Group)


             40.00%


             35.00%
                                                                                                                                                         Bank Net Non-Core
                                                                                                                                                         Funding Dependence
             30.00%                                                                                                                                      Peer group Net Non-Core
                                                                                                                                                         Funding Dependence

             25.00%
     Yield




             20.00%


             15.00%


             10.00%


             5.00%


             0.00%
                      Dec- Mar- Jun- Sep- Dec- Mar- Jun- Sep- Dec- Mar- Jun- Sep- Dec- Mar- Jun- Sep- Dec- Mar- Jun- Sep- Dec- Mar- Jun- Sep- Dec-
                       03   04   04   04   04   05   05   05   05 06     06   06   06 07     07   07   07   08   08   08   08 09     09   09   09
                                                                             Quarter End Date




 Source: UBPRs for First Lowndes.

First Lowndes opened a branch in Greenville, Alabama in 2003. Consistent with the
other branch locations, the deposits originated from this branch included large high-cost,
non-retail deposits, which are considered non-core funds. Table 5 shows the steady

                                                                                13
decline in the bank’s reported NIM, using the as-of dates for examinations from 2002 to
2009.

 Table 5: Trends in First Lowndes’ Net Interest Margin
 Financial     6/30/09     6/30/08      6/30/07    6/30/06   3/31/05   3/31/04   3/31/03   3/31/02
 Measure

   First
               2.92%        3.33%       3.80%      4.33%     4.79%     5.37%     5.20%     5.69%
 Lowndes

    Peer
               3.79%        3.98%       4.25%      4.26%     4.25%     4.26%     4.42%     4.44%
   Group
Source: Examination reports for First Lowndes.

According to DSC, First Lowndes did not have an imminent liquidity crisis at the time it
was closed in the first quarter of 2010. However, the bank did have $47.4 million in
certificate of deposit accounts, maturing at varying times in 2010, that may have been
difficult for the bank to renew given the bank’s weakened financial condition. If a
significant amount of these deposits could not be renewed when they matured, the bank
may have had a liquidity crisis later in 2010.


The FDIC’s Supervision of First Lowndes
The FDIC, in coordination with ASBD, provided ongoing supervisory oversight of First
Lowndes. Through their supervisory efforts, the regulators identified key risks in the
bank’s operations and made recommendations to improve risk management practices and
address areas of concern. The bank’s Board and senior management responses to these
criticisms and related recommendations repeatedly fell short and ultimately the financial
condition of the bank became critically deficient.

Given the examination findings and First Lowndes’ increasing risk profile, a more critical
assessment and stronger supervisory tenor at earlier examinations may have been
prudent. In this regard, a more stringent supervisory response and related action to
address the weak risk management practices identified during the August 2005 and
earlier examinations may have been prudent. Earlier supervisory intervention may have
better positioned First Lowndes to work through the loan deterioration that developed as
its real estate markets deteriorated, mitigating, to some extent, the financial problems
experienced by the bank.




                                                  14
Supervisory History

The following table summarizes the supervisory history of First Lowndes, including the
CAMELS ratings assigned and regulatory action taken as a result of the examinations
performed from 2002 to 2009.

Table 6: Examination History of First Lowndes from 2002 to 2009
 Examination                          CAMELS
                    Regulator                               Informal or Formal Action Taken*
  Start Date                          Ratings
  10/5/2009        FDIC/ASBD          555555/5                 C&D dated March 7, 2008
  10/14/2008       FDIC/ASBD          343433/3                 C&D dated March 7, 2008
  9/10/2007        FDIC/ASBD          344433/4                 C&D dated March 7, 2008
  8/28/2006        FDIC/ASBD          223222/2           Compliance MOU dated January 4, 2007
   8/1/2005        FDIC/ASBD          223232/2                          None
                                                       IT BBR dated September 22, 2004 and BSA
   7/6/2004            FDIC           223232/2
                                                            MOU dated December 7, 2004
   6/30/2003          ASBD            223222/2                          None
   6/10/2002          FDIC            223222/2                          None
Source: Examination reports for First Lowndes.

* Regulatory actions include Cease and Desist orders (C&D), memoranda of understanding (MOU), and
  bank board resolutions (BBR), which are defined in Appendix 2, Glossary of Terms. Regulatory actions
  pursued in 2004 include a BBR for information technology (IT) weaknesses and an MOU for Bank
  Secrecy Act (BSA) weaknesses. The MOU in 2007 addressed weaknesses in First Lowndes’ system for
  ensuring compliance with consumer protection laws and regulations.

Supervisory Response Related to Key Risks

The FDIC and ASBD identified the key risks and made recommendations to management
to address the weaknesses in First Lowndes’ operations and risk management functions.
The FDIC also pursued regulatory actions against the bank in 2004 and 2007 to address
IT, BSA, and compliance management issues. With respect to risk management, the
FDIC could have pursued earlier and more stringent regulatory action against the bank
when management and the Board failed to implement appropriate corrective actions to
address weaknesses identified by the examiners. These weaknesses were first identified
as early as the 2003 examination, but the FDIC did not take enforcement action against
the bank to address these issues until more than 4 years later, when the FDIC and ASBD
jointly issued a C&D on March 7, 2008.

More detailed information on the FDIC’s supervisory activities is presented below.

Supervisory Activities from 2002 through 2006

Examiners consistently identified weaknesses in the bank’s underwriting and credit
administration policies and procedures, risk management functions, and in other key
areas or functions of the bank, such as the annual budgeting process, BSA compliance,

                                                  15
and IT security controls. Many of these criticisms were repeated in consecutive
examinations because management failed to take appropriate corrective action.

Some of the specific examination criticisms from the 2006 examination included:

   o the methodology used to calculate the ALLL was deficient,

   o the credit presentations prepared by the bank were not always complete,

   o the bank’s internal risk rating system and risk identification procedures were
     inadequate,

   o the level of documentation exceptions (involving 27 percent of loans reviewed)
     was considered to be relatively high, and

   o the bank’s investment policy and loan policy did not include concentration limits.

2007 Supervisory Activities

According to the 2007 examination report, “The overall condition of the Bank has
deteriorated significantly since the last examination and is considered unsatisfactory.
Management oversight is ineffective and significant work is required to return the Bank
to a satisfactory condition.” The 2002 strategic initiative, using non-core funding to
expand into out-of-area credit markets on the Gulf Coast, approximately 100 miles from
the bank’s core business operations, was identified as a high-risk activity.

The volume of adversely classified assets rose from $4.4 million at the 2006 examination
to $11.0 million at this examination, an increase of 150 percent. The decline in the
bank’s asset quality was attributed to the bank having liberal lending practices and the
deterioration of the financial condition of certain borrowers. Asset classifications totaled
88 percent of the bank’s Tier 1 Risk Based Capital and the ALLL. The internal loan
grading system was deemed ineffective, as was the methodology used to calculate an
adequate ALLL level.

During this examination, regulators noted several apparent violations of laws and
regulations, including violations relating to loans in excess of the bank’s legal lending
limit, issues regarding the calculation and reporting of the bank’s legal lending limit,
inappropriate extensions of credit to executive officers, and appraisal concerns.




                                             16
2008 Supervisory Activities

The FDIC and ASBD jointly issued a C&D in March 2008 to address weaknesses
identified in the 2007 examination. The C&D provisions addressed asset quality, lending
policies, and internal loan review procedures and policies. The C&D also required the
bank to prepare a management assessment report. Based on the completed assessment
report, the Board replaced the president with an experienced banker who was appointed
to the position of CEO. In this capacity, the CEO had overall responsibility for managing
and supervising the bank and its staff, including the bank’s lending function. The CEO
reported directly to the Board. The president was relieved of all lending and management
responsibilities, although he was allowed to stay on as an employee.

The October 2008 examination identified some improvement in the area of credit
administration, but examiners concluded that new management had not been provided
sufficient time to fully address the problems from previous examinations. The bank’s
new CEO brought in a new Vice President/Credit Administration Officer. The
Management component and the composite ratings were elevated from a “4” to a “3”
based on bank management’s actions to improve previous asset classifications and
overall bank operations. However, the amount of classified loans increased from
$11.0 million to $16.4 million, or 13.6 percent of total loans outstanding, and
138.4 percent of the bank’s total equity capital.

Some positive items were noted despite the increase in classified loans. For example,
examiners noted that all criticized assets at this point were the result of prior
management’s unacceptable loan underwriting and administration practices, as well as
the deteriorating economic conditions. There were no adversely classified assets
underwritten by new management. Furthermore, management had made substantial
progress in reducing previously criticized loans.

The examination report also stated that the classified loans were concentrated in a
relatively small number of credits. Specifically, $9.6 million or 58.5 percent of the total
classified loans were originated with only five borrowers.

One cause for concern was the rising level of loan classifications. Like the 2007
examination, a large percentage of the 2008 examination classifications were identified
by the examination team, not by the bank. In addition, the examiners pointed out that the
bank’s internal auditor had issued several reports that contained repeat criticisms and the
Board and the audit committee did not appear to take any action to address them.
Additionally, examiners expressed concern regarding whether the bank would be able to
renew brokered deposits and large non-retail certificates of deposit accounts when they
matured.




                                             17
2009 Supervisory Activities

The 2009 examination report assigned a “5” to each component and the composite rating.
Examiners found that the bank was not in compliance with 15 provisions of the C&D
issued in 2008. Asset quality was considered critically deficient. Classified loans totaled
$33.0 million, or 28.2 percent of total loans outstanding. In September 2009, the bank
charged off $7.2 million of impaired loans in accordance with FAS 114.5 Additionally,
examiners recommended that the bank make another $650,000 provision to the ALLL
because the bank’s ALLL methodology was not in compliance with generally accepted
accounting principles.

The 2009 examination report also noted that although loan underwriting and
administration problems could be traced to former officers of the bank, the Board and
management were responsible for approving lending activities. Further, examiners found
numerous operational and lending deficiencies and lowered the Management rating to a
“5”. The bank also received a “5” rating for Sensitivity to Market Risk and for Liquidity,
because of the concern that the bank would likely not be able to retain deposits when they
matured, especially large certificate of deposit accounts or brokered deposits, because of
the bank’s poor financial condition.

Offsite Monitoring

In addition to onsite examinations, the FDIC has an offsite monitoring program that
generally consists of periodic contact with bank management to discuss current or
emerging issues, and the use of various offsite monitoring tools, including the Offsite
Review List (ORL), to monitor institutions between examinations.

The Case Manager Procedures Manual states that the “offsite review program is
designed to identify emerging supervisory concerns and potential problems so that
supervisory strategies can be adjusted appropriately.” The FDIC generates a quarterly
ORL, listing institutions that meet criteria based on three risk measurements:

    o The Statistical CAMELS Offsite Rating (SCOR) model uses statistical techniques
      to measure the likelihood that an institution will receive a ratings downgrade at
      the next examination.

    o SCOR-Lag, a derivation of SCOR, attempts to more accurately assess the
      financial condition of rapidly growing banks.




5
  FAS 114 addresses accounting by creditors for the impairment of certain loans. It requires that certain
impaired loans be measured at the present value of expected future cash flows discounted at the loan’s
effective interest rate or at the loan’s observable market price, or the fair value of the collateral if the loan is
collateral dependent.
                                                        18
       o The Growth Monitoring System (GMS) identifies institutions experiencing rapid
         growth and/or with a funding structure highly dependent on non-core funding
         sources.

The ORL consists of institutions with a composite CAMELS rating of 1 or 2 that have
been identified by SCOR or SCOR-Lag as having a 35 percent or higher probability of
being downgraded to a 3 rating or worse at the next examination, or have been flagged by
GMS as being in the 98th or higher growth percentile. Offsite reviews must be completed
and approved within 3½ months after each Call Report date.6

Three offsite reviews were conducted for First Lowndes as summarized in Table 7.

Table 7: First Lowndes’ Offsite Monitoring History
Call Report Date           Completed Date          Level of Risk         Risk Trend       Follow-up

       12/31/02                  4/8/03                Medium             Increasing        None
                                                                                          Continued
       12/31/03                 4/12/04                Medium             Increasing
                                                                                          monitoring
        9/30/09                  1/8/10                 High              Increasing        None
Source: Offsite review data obtained from FDIC offsite review reports printed from DSC’s supervisory
information system.

The offsite review completed on April 8, 2003, under “recommendations/corrective
action,” stated that due to the “3” Management rating, First Lowndes was on an annual
examination program and, pending the results of the 2003 ASBD examination, no other
onsite or offsite FDIC activities were recommended. The offsite review completed on
April 12, 2004 also stated under “recommendations/corrective action” that due to the “3”
Management rating, the bank was on an annual examination program. The bank did not
appear on the ORL from 2004 through the 3rd quarter of 2009 due in part to bank
management not recognizing loan problems in a timely manner. The January 8, 2010
review stated that the bank was scheduled to fail soon and was being monitored daily by
its case manager for liquidity purposes.

The offsite reviews for the bank were conducted in accordance with policy; however,
they did not result in any material change to the supervisory approach to the institution.

Implementation of PCA

The purpose of PCA is to resolve the problems of insured depository institutions at the
least possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered, nonmember banks that are not Adequately
Capitalized. The FDIC is required to closely monitor the institution’s compliance with
its capital restoration plan, mandatory restrictions defined under section 38(e) of the FDI

6
    The FDIC also utilizes other offsite monitoring tools in addition to the ORL.
                                                       19
Act, and discretionary safeguards imposed by the FDIC (if any) to determine if the
purposes of PCA are being achieved.

Table 8 shows the bank’s capital ratios as of December 31, 2005 through 2008 and at
various points during 2009.

Table 8: First Lowndes’ Capital Ratios and PCA Categories
                    Tier 1 Leverage      Tier 1 Risk-Based         Total Risk-            PCA Capital
Period Ended
                         Capital               Capital            Based Capital            Category
   12/31/05              7.13%                 9.53%                  10.80%             Well Capitalized
   12/31/06              7.39%                 10.32%                 11.58%             Well Capitalized
   12/31/07              6.96%                  9.72%                 10.98%             Well Capitalized
   12/31/08              7.04%                  9.37%                 10.64%             Well Capitalized
    3/31/09              7.11%                  9.63%                 10.90%             Well Capitalized
    6/30/09              7.15%                  9.65%                 10.92%             Well Capitalized
                                                                                          Significantly
    9/30/09              2.32%                  3.30%                  4.58%
                                                                                         Undercapitalized
                                                                                            Critically
    11/4/09              1.80%                   N/A                    N/A
                                                                                         Undercapitalized
Source: Call Reports filed by First Lowndes with the FDIC and 2009 Examination Report.

As of June 30, 2009, First Lowndes was considered Well Capitalized for PCA purposes.
During the 3rd quarter of 2009, the bank made a $7.8 million provision to the ALLL. As
a result of the provision, the bank became Significantly Undercapitalized under PCA.

Based on the supervisory actions taken with respect to First Lowndes, we determined that
the FDIC properly implemented applicable PCA provisions of section 38 as follows:

    o Although First Lowndes was Significantly Undercapitalized for PCA purposes
      based on its September 30, 2009 Call Report, that data was in the process of being
      reported and processed when the 2009 examination found the bank to be
      Critically Undercapitalized.

    o On November 13, 2009, the FDIC sent First Lowndes’ Board a PCA notification
      by certified letter. The letter stated that the bank was Critically Undercapitalized
      as of November 4, 2009, based on the 2009 examination findings. In accordance
      with PCA provisions, the FDIC required First Lowndes to file a written capital
      restoration plan and notified the bank of other restrictions in place under PCA.

    o The capital restoration plan was submitted by the bank to the FDIC on
      November 23, 2009. This plan outlined steps First Lowndes would take to
      become Adequately Capitalized. The Board determined that it would be
      necessary to sell all or a majority of the outstanding stock of the holding company
      to an investor or group of investors. None of the bank’s existing shareholders,
      employees, or Board members would be injecting any additional capital.
                                                   20
       According to the plan, the bank would need to have raised at least $7.25 million
       in additional capital by January 30, 2010.

Ultimately, First Lowndes was unable to find a suitable acquirer or otherwise raise
sufficient capital to support its continued operation and correct its then-Critically
Undercapitalized position. On March 19, 2010, First Lowndes was closed by the ASBD
and the FDIC was named as the receiver for the institution.

Lessons Learned

Based on our review, too much reliance may have been placed on First Lowndes being
Well Capitalized for PCA purposes and operating at a profit to compensate for the
apparent deficiencies in the bank’s risk management practices. In light of the
examination findings and First Lowndes’ increasing risk profile, a more critical
assessment and stronger supervisory tenor at earlier examinations may have been
prudent. In hindsight, the FDIC may have benefited from pursuing supervisory action as
early as 2005, when the bank had repeatedly failed to take corrective action to address
criticisms and recommendations made by examiners for the bank to adopt and implement
appropriate risk management policies and procedures to address the increased risks the
bank was undertaking. Such action may have compelled the bank to (1) bring in new
management earlier than 2008 and (2) implement effective internal audit and risk
management programs earlier than 2006.

In addition, upgrading the Management and composite ratings from a “4” to a “3” at the
2008 examination may not have been warranted, considering that the dollar amount of
classified assets actually increased during this examination compared to the prior
examination, the bank was continuing to report net losses in its earnings statement, and
management and the Board had not fully implemented the corrective actions to address
the deficiencies noted in previous examinations.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from failures during the financial crisis. Of note, in 2008 the
FDIC reiterated broad supervisory expectations with regard to managing risk associated
with ADC and CRE loan concentrations. Further, the FDIC has completed a training
initiative for its entire supervisory workforce that emphasizes the need to assess a bank’s
risk profile using forward-looking supervision. The training addresses the need for
examiners to consider management practices as well as current financial performance or
trends in assigning ratings, as allowable under existing examination guidance.


Corporation and ASBD Comments
After we issued our draft report, DSC management officials provided informal comments
for our consideration and we revised our report as appropriate. On February 7, 2011, the


                                            21
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

In DSC’s response, the Director provided the division’s views on the causes of First
Lowndes’ failure and the regulators’ supervision of the bank. The response also stated
that DSC issued a FIL in 2008 entitled Managing Commercial Real Estate
Concentrations in a Challenging Environment, which re-emphasized the importance of
robust credit risk-management practices for institutions with concentrated CRE
exposures. DSC also pointed out that it had issued a FIL in 2009 entitled The Use of
Volatile or Special Funding Sources by Financial Institutions That Are in a Weakened
Condition to enhance the supervision of institutions that rely on volatile non-core
funding.

ASBD also provided a written response. ASBD largely agreed with our findings and
added that credit administration and underwriting were so poor at First Lowndes that the
loans made in the bank’s rural trade area would, by themselves, have led to extreme
difficulties and possible failure of the bank. In addition, they cited the following lessons
learned:

      For banks rated composite 2, regulators were reluctant to require that examiner
       concerns be addressed, but banks should not be allowed to ignore examiner
       concerns and recommendations no matter how determined bank management is to
       do so.

      Regardless of a bank’s composite rating, serious repeat criticisms should be
       addressed with increasingly severe enforcement actions that include limits on
       growth.




                                             22
                                                                            Appendix 1

                   Objectives, Scope, and Methodology


Objectives

This performance audit was conducted to satisfy the requirements of section 38(k) of the
FDI Act, as amended by the Financial Reform Act, which was signed into law on July 21,
2010. The Financial Reform Act amended section 38(k) of the FDI Act by increasing the
MLR threshold from $25 million to $200 million for losses that occur for the period
January 1, 2010 through December 31, 2011. Further, the Financial Reform Act includes
provisions that call for the OIG to perform an in-depth review of failures when losses are
not material but they involve unusual circumstances. In-depth reviews are required to be
performed and reported in a manner consistent with that of an MLR.

At the time the Financial Reform Act was enacted, fieldwork was substantially
completed. Although the estimated loss for First Lowndes no longer met the threshold
requiring an MLR, the OIG decided to complete the audit and issue this report as an in-
depth review. In preparing this report, we relied extensively on work performed by
Clifton Gunderson LLP, an independent contractor engaged by the OIG.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of First Lowndes’ failure and
the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the bank,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

This performance audit was conducted from June 2010 to December 2010 in accordance
with GAGAS. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. We believe that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.


Scope and Methodology

The scope of this audit included an analysis of First Lowndes’ operations from 2002 until
its failure on March 19, 2010. The review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, Clifton Gunderson performed the following procedures and
techniques:

   o Analyzed examination reports prepared by the FDIC and ASBD examiners from
     2002 to 2009.

   o Reviewed the following:

                                           23
                                                                              Appendix 1

                     Objectives, Scope, and Methodology

             Bank data and correspondence maintained on FDIC databases.

             Reports prepared by the Division of Resolutions and Receiverships (DRR)
              and Division of Supervision and Consumer Protection (DSC) relating to First
              Lowndes’ closure. Clifton Gunderson also reviewed selected failed bank
              records maintained by DRR in Jacksonville, Florida for information that
              would provide insight into First Lowndes’ failure.

             Audit reports prepared by First Lowndes’ internal and external audit firms.

             Pertinent DSC policies and procedures and various banking laws and
              regulations.

       o Interviewed the following FDIC officials:

             Two FDIC Case Managers from the Atlanta Regional Office and one Case
              Manager from the Chicago Regional Office.

             Two FDIC examiners from the Atlanta Regional Office who participated in
              examinations or reviews of examinations of First Lowndes.

       o Interviewed two officials from the ASBD to discuss the historical perspective
         of the institution, its examinations, and other activities regarding the state's
         supervision of First Lowndes.

In addition to overseeing the work performed by Clifton Gunderson, the OIG performed
other steps deemed necessary in preparing the audit report, which included conducting a
comprehensive review of the firm’s audit workpapers.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand First Lowndes’
management controls pertaining to the causes of failure and loss as discussed in the body
of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.


                                             24
                                                                             Appendix 1

                   Objectives, Scope, and Methodology


The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this in-depth review, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests are discussed,
where appropriate, in this report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. In December 2010, the OIG completed an audit,
the objectives of which were to (1) determine the actions that the FDIC has taken to
enhance its supervision program since May 2009, including those specifically in response
to the May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs. That report, Follow-up Audit of FDIC Supervision Program
Enhancements (Report No. MLR-11-010), and additional reports related to the failures of
FDIC-supervised institutions, can be found at www.fdicig.gov.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                            25
                                                                                 Appendix 2

                               Glossary of Terms

Term                                                Definition
Acquisition,    ADC loans are a component of Commercial Real Estate that provide funding for
Development,    acquiring and developing land for future construction, and providing interim
and             financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely       Assets subject to criticism and/or comment in an examination report. Adversely
Classified      classified assets are allocated on the basis of risk (lowest to highest) into three
Assets          categories: Substandard, Doubtful, and Loss.

Allowance for   The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and        book value of loans and leases to the amount that is expected to be collected. It
Lease Losses    is established in recognition that some loans in the institution’s overall loan and
(ALLL)          lease portfolio will not be repaid. Boards of directors are responsible for
                ensuring that their institutions have controls in place to consistently determine
                the allowance in accordance with the institutions’ stated policies and
                procedures, generally accepted accounting principles, and supervisory guidance.

Bank Board      A Bank Board Resolution is an informal commitment adopted by a financial
Resolution      institution’s Board of Directors (often at the request of the FDIC) directing
(BBR)           the institution’s personnel to take corrective action regarding specific noted
                deficiencies. A BBR may also be used as a tool to strengthen and monitor
                the institution’s progress with regard to a particular component rating or
                activity.

Bank Secrecy    Congress enacted the BSA of 1970 to prevent banks and other financial service
Act (BSA)       providers from being used as intermediaries for, or to hide the transfer or
                deposit of money derived from, criminal activity. The BSA requires financial
                institutions to maintain appropriate records and to file certain reports, including
                cash transactions over $10,000, via the Currency Transactions Reports (CTR).
                These reports are used in criminal, tax, or regulatory investigations or
                proceedings.
Call Report     Reports of Condition and Income, often referred to as Call Reports, include
                basic financial data for insured commercial banks in the form of a balance sheet,
                an income statement, and supporting schedules. According to the Federal
                Financial Institutions Examination Council’s (FFIEC) instructions for preparing
                Call Reports, national banks, state member banks, and insured nonmember
                banks are required to submit a Call Report to the FFIEC’s Central Data
                Repository (an Internet-based system used for data collection) as of the close of
                business on the last day of each calendar quarter.

Cease and       A C&D is a formal enforcement action issued by a financial institution regulator
Desist Order    pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to stop an unsafe
(C&D)           or unsound practice or a violation of laws and regulations. A C&D may be
                terminated when the bank's condition has significantly improved and the action
                is no longer needed or the bank has materially complied with its terms.


                                            26
                                                                                 Appendix 2

                               Glossary of Terms

Commercial      CRE loans are land development and construction loans (including 1-to-4
Real Estate     family residential and commercial construction loans) and other land loans.
(CRE) Loans     CRE loans also include loans secured by multifamily property and nonfarm
                nonresidential property, where the primary source of repayment is derived from
                rental income associated with the property or the proceeds of the sale,
                refinancing, or permanent financing of the property.

Concentration   A concentration is a significantly large volume of economically related assets
                that an institution has advanced or committed to a certain industry, person,
                entity, or affiliated group. These assets may, in the aggregate, present a
                substantial risk to the safety and soundness of the institution.

The FDIC’s      The FDIC’s supervision program promotes the safety and soundness of FDIC-
Supervision     supervised institutions, protects consumers’ rights, and promotes community
Program         investment initiatives by FDIC-supervised institutions. The FDIC’s Division of
                Supervision and Consumer Protection (DSC)
                (1) performs examinations of FDIC-supervised institutions to assess their
                overall financial condition, management policies and practices (including
                internal control systems), and compliance with applicable laws and regulations
                and (2) issues related guidance to institutions and examiners.

Federal Home    FHLBs provide long-and short-term advances (loans) to their members.
Loan Bank       Advances are primarily collateralized by residential mortgage loans, and
(FHLB)          government and agency securities. Community financial institutions may
Advances        pledge small business, small farm, and small agri-business loans as collateral for
                advances. Advances are priced at a small spread over comparable U.S.
                Department of the Treasury obligations.

Material Loss   As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                Dodd-Frank Wall Street Reform and Consumer Protection Act, for the period
                beginning January 1, 2010 and ending December 31, 2011, a material loss is
                defined as any estimated loss in excess of $200 million.

Memorandum      A Memorandum of Understanding is an informal agreement between the
of              institution and the FDIC, which is signed by both parties. The State
Understanding   Authority may also be party to the agreement. MOUs are designed to address
(MOU)           and correct identified weaknesses in an institution’s condition.




Non-Core        Wholesale funding sources include, but are not limited to, Federal funds, public
Funding         funds, Federal Home Loan Bank advances, the Federal Reserve’s primary credit
Sources         program, foreign deposits, brokered deposits, and deposits obtained through the
                Internet or CD listing services. Financial institutions may use wholesale
                funding sources as an alternative to core deposits to satisfy funding and liability
                management needs.




                                            27
                                                                                 Appendix 2

                                Glossary of Terms

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies can
                 be adjusted appropriately. Offsite reviews are performed quarterly for each
                 bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review findings
                 are factored into examination schedules and other supervisory activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number of
                 branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.

Prompt           The purpose of PCA is to resolve the problems of insured depository institutions
Corrective       at the least possible long-term cost to the Deposit Insurance Fund. Part 325,
Action (PCA)     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal Regulations,
                 section 325.101, et. seq., implements section 38, Prompt Corrective Action, of
                 the FDI Act, 12 United States Code section 1831(o), by establishing a
                 framework for determining capital adequacy and taking supervisory actions
                 against depository institutions that are in an unsafe or unsound condition. The
                 following terms are used to describe capital adequacy: (1) Well Capitalized,
                 (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                 Undercapitalized, and (5) Critically Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action or
                 compliance with the PCA statute with respect to an institution that falls within
                 any of the three categories of undercapitalized institutions.

Receiver         When a bank fails the FDIC may be appointed receiver. The receiver will then
                 sell the institution’s assets to pay depositors and creditors.

Risk-based       Appendix A to Part 325—Statement of Policy on Risk-Based Capital— defines
Capital Rules    the FDIC’s risk-based capital rules. Appendix A states an institution’s balance
                 sheet assets and credit equivalent amounts of off-balance sheet items are
                 assigned to broad risk categories according to the obligor or, if relevant, the
                 guarantor or the nature of the collateral. The aggregate dollar amount in each
                 category is then multiplied by the risk weight assigned to that category. The
                 resulting weighted values from each of the four risk categories are added
                 together and this sum is the risk-weighted assets total that, as adjusted,
                 comprises the denominator of the risk-based capital ratio. The institution’s
                 qualifying total capital base is the numerator of the ratio.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data and
Performance      ratios that includes extensive comparisons to peer group performance. The
Report           report is produced by the Federal Financial Institutions Examination Council for
(UBPR)           the use of banking supervisors, bankers, and the general public and is produced
                 quarterly from Call Report data submitted by banks.




                                             28
                                                                               Appendix 2

                              Glossary of Terms

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions    components represented by the CAMELS acronym: Capital adequacy, Asset
Rating System   quality, Management practices, Earnings performance, Liquidity position, and
                Sensitivity to market risk. Each component, and an overall composite score, is
(UFIRS)
                assigned a rating of 1 through 5, with 1 having the least regulatory concern and
                5 having the greatest concern.




                                           29
                                                                     Appendix 3

                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CEO      Chief Executive Officer

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

MOU      Memorandum of Understanding

OIG      Office of Inspector General

ORL      Offsite Review List

PCA      Prompt Corrective Action

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                        30
                                                                                            Appendix 4

                                           Corporation Comments




     Federal Deposit Insurance Corporation
         550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                               February 7, 2011
     TO:                Stephen Beard
                        Assistant Inspector General for Material Loss Reviews

                        /Signed/
     FROM:              Sandra L. Thompson
                        Director

     SUBJECT:           FDIC Response to the Draft Audit Report Entitled, In-Depth Review of First
                        Lowndes Bank Fort Deposit, Alabama (Assignment 2010-047)

    Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
    Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s
    Office of Inspector General (OIG) conducted an In-Depth Review of First Lowndes Bank (First
    Lowndes), which failed on March 19, 2010. This memorandum is the response of the Division of
    Supervision and Consumer Protection (DSC) to the OIG’s Draft Report received on January 7, 2011.

    First Lowndes failed due to the Board and management’s weak oversight of the commercial real
    estate (CRE) loan portfolio. Management failed to implement effective risk management practices
    and strong credit administration and loan underwriting practices commensurate with the portfolio’s
    risk. Further, management expanded its CRE lending growth strategy into the Gulf Coast region, a
    new out-of-territory market to First Lowndes. This growth was fueled by volatile funding sources
    that negatively impacted earnings. When market conditions began to decline, capital levels were
    insufficient to absorb losses and efforts to recapitalize were unsuccessful.

    From 2005 through 2009, the FDIC and the Alabama Banking Department conducted five onsite
    examinations, two visitations and off-site reviews. In 2006, examiners recommended management
    improve oversight of its credit administration practices, correct deficiencies and ensure that effective
    policies and procedures were adopted. The 2007 examination noted that First Lowndes’ overall
    condition had significantly deteriorated since the previous examination and resulted in a Cease and
    Desist Order. First Lowndes made some improvements in credit administration practices in 2008,
    but by 2009 asset quality had deteriorated. Earnings performance could not support operations and
    First Lowndes could not maintain adequate capital levels to sustain their losses.
.
    DSC issued a Financial Institution Letter (FIL) to banks on Managing Commercial Real Estate
    Concentrations in a Challenging Environment that re-emphasized the importance of robust credit
    risk-management practices for institutions with concentrated CRE exposures. Additionally, DSC
    issued a FIL in 2009 on The Use of Volatile or Special Funding Sources by Financial Institutions
    That Are in a Weakened Condition to enhance the supervision of institutions that rely on volatile
    non-core funding.

    Thank you for the opportunity to review and comment on the Report.




                                                           31
